Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




  Withholding Child Support Obligations from
           Departmental Employees




                       Janet Rehnquist
                      Inspector General

                         OCTOBER 2001
                        OEI-05-00-00300
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William C. Moran,
Regional Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                              HEADQUARTERS

Victoria Dougherty, Program Analyst
                Joan Richardson, Program Specialist

Emily Melnick, Program Analyst
                     Brian Ritchie, Program Analyst

Kristen Masse, Program Analyst
                     Barbara Tedesco, Mathematical Statistician

Ray Balandron, Program Analyst

Elander Phillips, Program Inspections Assistant 





    To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
         Reports are also available on the World Wide Web at our home page address:

                                  http://www.hhs.gov/oig/oei
                           EXECUTIVE                                    SUMMARY

PURPOSE

           To evaluate the wage withholding of child support from Department of Health and Human
           Services’ (HHS) employees.

BACKGROUND

           On February 27, 1995, the President signed Executive Order 12953, which requires
           Federal agencies to:

             C conduct an annual cross-match of the Federal tax refund offset file with the payroll
               files of Federal agencies to identify Federal employees with child support
               delinquencies,
             C comply with all wage withholding requirements, and
             C act as model employers in facilitating the establishment and enforcement of child
               support orders.

FINDINGS

We Found Delinquent Obligors Without Wage Withholding Employed by the
Department

           The 1995 Executive Order 12953 requires an annual match of the Federal tax refund
           offset file, indicating delinquent obligors, with the payroll files of Federal agencies. The
           intent of this match is to identify Federal employees with child support delinquencies to
           ensure enforcement of their support obligations. The Department last conducted an
           annual match in 1996.

           We conducted a match of the Federal tax refund offset file and the Department of Health
           and Human Services’ payroll file. This match resulted in a list of 215 delinquent
           employee-obligors, with an average delinquency of $7,295. As of May 30, 2000, wage
           withholding was in place for 139 and not in place for 76 of these delinquent employee-
           obligors.

           The Program Support Center, an operating division of HHS, conducts payroll services for
           the Department’s approximately 60,000 employees, including payroll deductions for child
           support payments. During the course of the inspection, the Office of Child Support
           Enforcement and the Program Support Center agreed to work together to periodically


Withholding Child Support Obligations from Departmental Employees   i               OEI-05-00-00300
           conduct the cross-match to identify departmental employees who are delinquent child
           support obligors.

In More Than Half the Sampled Cases, States Did Not Know That Delinquent
Obligors Were Departmental Employees

           State systems typically match obligor information with State employment databases
           containing new hire and quarterly wage information from employers statewide. The
           National Directory of New Hires is the primary source for learning of Federal employment
           because Federal employees are not included in State employment systems.

           The Office of Child Support Enforcement assumes that States will learn from the National
           Directory of New Hires that an obligor is a Federal employee and act accordingly to
           pursue wage withholding. However, our examination of the case files for a sample of 45
           of the 76 employee-obligors, without withholding in place, revealed that in approximately
           22 cases the States did not learn that these obligors were departmental employees. The
           States either did not receive matches or did not determine from the matches that the
           obligor was, in fact, a Federal departmental employee. Upon learning of the obligors’
           employment with the Department through our inspection, most of the States immediately
           issued wage withholding orders to HHS for these cases.

More than Half of the Individuals Without Wage Withholding Were Indian Health
Service Employees

           We found that 44 of the 76 delinquent employee-obligors without wage withholding were
           Indian Health Service employees. In 19 of 45 sampled cases, tribal jurisdiction issues
           contributed to the absence of income withholding. The Department has the authority to
           withhold wages for all Federal employees for the payment of child support, regardless of
           Native American tribal membership or residency, or employment on a reservation.
           Caseworkers often do not know that Native American obligors are Federal employees or
           that enforcement should be pursued for Indian Health Service cases. State enforcement
           policies involving Tribal jurisdiction are varied and complex. Many State caseworkers do
           not pursue these cases.

The Department Enters All Income Withholding Orders Received; However, Some
Data Entry Errors Occur

           The Program Support Center process for entering income withholding orders appears to
           be orderly and timely. Through a review of 51 cases with withholding in place, we found
           that the majority were entered into the system within 10 days of order receipt. State
           records indicated that income withholding orders were sent to the Department in 8 of the
           45 sampled cases that did not have withholding in place. However, the Program Support
           Center was not responsible for the lack of withholding in these eight cases. In four cases,

Withholding Child Support Obligations from Departmental Employees   ii            OEI-05-00-00300
           the States sent wage withholding orders to the wrong HHS office. The other cases were
           inactive because current support had been paid in full.

           We found data entry errors in the amounts to be withheld and recipient addresses in some
           cases. In 8 out of 49 cases (16 percent) reviewed with withholding in place, the amounts
           to be withheld on the entry forms differed from the required amounts on the court orders.
           Entry forms with errors were rarely signed by a supervisor.

RECOMMENDATIONS

           While conducting our inspection, OCSE worked closely with us to solve problems
           associated with the 76 departmental employees without wage withholding. In addition,
           OCSE is an active and cooperative partner with the Department in responding to our
           recommendation to institutionalize a process to ensure Departmental compliance with the
           Executive Order. Additional steps are also needed, however. We recommend:

                C The Department designate a senior departmental official the responsibility for
                  ensuring compliance with the Executive Order,

                C The Office of Child Support Enforcement help States effectively use the National
                  Directory of New Hires,

                C The Office of Child Support Enforcement provide guidance to States on issuing
                  withholding orders for Indian Health Service employees, and

                C The Program Support Center increase withholding accuracy.

AGENCY COMMENTS

           We received comments from the Office of Child Support Enforcement (OCSE), the
           Program Support Center (PSC) and the Indian Health Service (IHS). The OCSE is in
           agreement with our findings and recommendations. The PSC agrees this is an important
           initiative and provided technical comments and clarification. The IHS agrees with our
           recommendation pertaining to IHS employees. Where appropriate, we changed the report
           to reflect their comments. The full OCSE, PSC and IHS comments are contained in
           Appendix C.

           One matter unresolved at this time is the designation of a senior official to oversee
           Departmental compliance with the Executive Order. Considerable improvement can be
           made without taking this step, but an overall coordinator could facilitate a more cohesive
           and effective Department-wide response.



Withholding Child Support Obligations from Departmental Employees   iii            OEI-05-00-00300
                           TABLE                          OF             CONTENTS

                                                                                                                                PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


     Delinquent Obligors Without Wage Withholding Employed by the Department . . . . . . . . . . 8


     States Did Not Know That Delinquent Obligors Were Departmental Employees . . . . . . . . . 9


     More Than Half Without Wage Withholding Were IHS Employees . . . . . . . . . . . . . . . . . . 10


     The Department Enters All Orders Received; Some Data Entry Errors Occur . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES

  A. Profile of Employee Obligors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


     B. Reasons for Non-Withholding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


     C. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





Withholding Child Support Obligations from Departmental Employees   iv                                       OEI-05-00-00300
                                            INTRODUCTION


PURPOSE

           To evaluate the wage withholding of child support from Department of Health and Human
           Services’ (HHS) employees.


BACKGROUND

           The Child Support Enforcement program was created in 1975 with the addition of Part D
           to Title IV of the Social Security Act. State Child Support Enforcement Agencies, also
           known as IV-D agencies, are responsible for administering the program, including locating
           absent parents, establishing paternity, establishing orders for financial and medical support,
           enforcing the orders, and collecting and disbursing the support due. The Federal Office of
           Child Support Enforcement (OCSE) contributes matching funds, sets requirements for
           certain design features, and monitors and evaluates State child support program
           implementation. The OCSE also provides State child support agencies with technical and
           operational assistance to carry out program functions.

           In fiscal year (FY) 1998, State child support agencies had a total caseload of just over
           19.1 million cases. Approximately 11.5 million of these cases had child support orders
           established and in effect. The OCSE does not have data available on the number of
           Federal employees or departmental employees who are child support obligors.

Executive Order for Federal Agencies to be Model Employers in the Collection of
Support

           On February 27, 1995, the President signed Executive Order 12953 establishing the
           Federal Government as a model employer in facilitating the establishment and enforcement
           of child support orders. The Order states that, as the Nation’s largest single employer, the
           Federal Government should set an example of leadership in the collection of support from
           employees. The Executive Order requires Federal agencies to cooperate in efforts to
           establish paternity and child support orders, as well as enforce the collection of child and
           medical support.

           The Executive Order requires an annual cross-match of the Federal tax refund offset file
           with the payroll files of Federal agencies to identify Federal employees with child support
           delinquencies. The criteria for delinquency for the tax refund offset file are as follows:
           the obligor must owe arrears of $150 or more if the custodial parent is on Temporary


Withholding Child Support Obligations From Departmental Employees   1              OEI-05-00-00300
           Assistance to Needy Families (TANF) or $500 or more if the custodial parent is not on
           TANF.

           The records generated from the tax offset-payroll file match are to be sent to the
           appropriate State child support agency to pursue wage withholding or other enforcement
           actions. In addition, under the Order, the Office of Personnel Management is required to
           annually publish in the Federal Register a list of contacts for each Federal Agency
           designated to receive income withholding orders for employees. Upon receipt of
           withholding orders, Federal agencies must comply with all wage withholding
           requirements.

           The Office of Child Support Enforcement last conducted a match of Federal payroll data
           with the tax refund offset file in October 1996. This match identified 225 employees of
           the Department of Health and Human Services as delinquent obligors. The match of these
           two files, required annually, has not been conducted by OCSE since 1996, due to their
           determination that pro-active matching of the National Directory of New Hires and the
           Federal Case Registry, enacted in 1996, supercedes the required payroll-tax offset file
           match.

National Directory of New Hires and the Federal Case Registry

           The 1996 Personal Responsibility and Work Opportunity Reconciliation Act (PRWORA)
           mandated the creation of the National Directory of New Hires, a national database of
           employment data, herein referred to as the Directory, and the Federal Case Registry, a
           national database of child support case abstracts.

           The National Directory of New Hires contains three types of employment data compiled
           from State Employment Security Agencies and Federal Employers: State employment
           information on all new hires, quarterly wages for all employees and State unemployment
           insurance claim data. Federal employers, with the exception of certain security agencies,
           are required to submit new hire employment data and quarterly wage data on Federal
           employees to the Directory on a routine basis.

           The PRWORA requires routine matching between the National Directory of New Hires
           and the Federal Case Registry (FCR) to generate information on obligors for “locate” and
           enforcement purposes. Since October 1, 1998, matches have been continually run
           between the Directory and the FCR.1 When a match is identified, the employment
           information for the obligor is sent to the State. Through this system, States should receive
           recent employment information for all obligors employed by the Federal



           1
                      Pro-active matching of the NDNH and the expanded Federal Parent Locator Service began in October 1997, prior to full
                      implementation of the FCR.


Withholding Child Support Obligations From Departmental Employees      2                                          OEI-05-00-00300
           government. It is then the States’ responsibility to seek wage withholding through the
           Federal employer, if it is not already in place.

Wage Withholding as Primary Enforcement Tool

           The most widely used and effective child support enforcement tool is wage withholding.
           Nearly 60 percent of all child support is collected through the withholding of wages by
           employers.

           Since the start of the child support program in 1975, State IV-D agencies have been
           authorized by the Federal Government to garnish wages and other payments for
           enforcement of child support obligations. The child support amendments of 1984 required
           IV-D agencies to include a provision for wage withholding in the establishment of all new
           orders and the modification of existing orders. States were required to implement wage
           withholding when an arrearage accrued that was equal to the amount of support payable
           for one month. The Family Support Act of 1988 greatly expanded wage withholding by
           requiring States to begin immediate wage withholding for all new or modified IV-D orders
           as of November 1990, regardless of whether arrears exist.2

           Upon receipt of a child support withholding notice, employers must provide a copy of the
           notice to the employee and begin withholding within 30 days. Employers are to continue
           withholding the required amount until official notification to stop is received.
           Additionally, the employer is required to notify the child support agency if the employment
           ends or is interrupted. The Treasury Department sends withheld payments from Federal
           employees to the States or the custodial parent.

Wage Withholding Within the Department of Health and Human Services

           The Program Support Center (PSC), an operating division of HHS, conducts payroll
           services for all of the Department’s approximately 60,000 employees. As part of its
           payroll operations, the Center oversees the Debt Management and Collection System for
           the Department. Through this system, all payroll deductions for child support payments
           are processed.

           State child support agencies are required to send all withholding orders to the Office of
           General Counsel for HHS. The Office then sends the income withholding orders to the
           Special Activities Branch of the Program Support Center for processing. The Special
           Activities Branch is responsible for processing all mandatory withholding orders. If
           withholding orders are received by local Department employment sites or personnel



           2
                      The law allows for exceptions to immediate wage withholding if good cause not to withhold is determined in court or a
                      written agreement is reached between both parties for an alternative arrangement.


Withholding Child Support Obligations From Departmental Employees       3                                           OEI-05-00-00300
           offices, they are to be forwarded to the Office of General Counsel or the Special Activities
           Branch and processed centrally.

Child Support Enforcement for Indian Tribes

           State child support agencies are responsible for establishing and enforcing child support
           orders for all IV-D cases opened in the State. However, the Office of Child Support
           Enforcement recognizes that Tribal sovereignty may prohibit State child support agencies
           from enforcing certain child support orders. Currently, each State agency determines
           whether to pursue the establishment and enforcement of orders in cases involving Tribal
           jurisdiction.

           Unlike other employers, the Federal Government has the authority to withhold wages for
           all Federal employees for the payment of child support, regardless of Native American
           tribal membership, residency, or employment on a reservation.

           State child support agencies and Tribes can contract for the Tribes to provide child
           support services. State agencies receive Federal financial participation for these costs, as
           long as the Tribal entity “demonstrates that it has an established Tribal court system with
           the authority to establish paternity, establish, modify or enforce support orders or to enter
           support orders in accordance with child support guidelines established or adopted by such
           Tribal entity.”3 Currently, 11 Tribes operate child support programs in whole or in part
           under cooperative or contractual agreements with eight State child support enforcement
           agencies. The Tribes, which operate under such cooperative arrangements with States,
           are not required to adhere to Federal income withholding requirements or to honor income
           withholding orders from State agencies.

           However, the PRWORA authorized direct Federal funding for Tribes operating child
           support enforcement programs. The PRWORA interim final rule requires Tribes to
           comply with all Federal child support provisions in order to receive direct Federal funding,
           including issuing wage withholding orders to the employers of all obligors. The interim
           final rule also requires Tribes to recognize child support orders issued by other Tribes,
           Tribal organizations, and States. Thus, funded Tribes will be required to honor income
           withholding orders issued by State child support enforcement agencies.

Related Prior Office of Inspector General Work

           In August, 2000, the Inspector General released “Child Support Enforcement State
           Disbursement Units: Sharing the Implementation Experiences of Six States,” OEI-06-00-
           00041. This study described States' experiences in developing and operating State
           Disbursement Units. The Inspector General found that State Disbursement Unit


           3
                      OCSE Action Transmittal, July 28, 1998 AT-98-21


Withholding Child Support Obligations From Departmental Employees   4             OEI-05-00-00300
           managers cited particular difficulties processing checks issued by Federal agencies.
           According to the managers, Federal checks often contain inadequate or confusing
           information, are sometimes sent to the wrong location, and may be submitted too early to
           allow proper disbursement to custodial families. The OIG recommended that OCSE
           encourage improved performance by Federal government payers by collaborating with
           States so that States can communicate their problems and potential solutions.

           The Office of Inspector General conducted an inspection on Child Support and the
           Military, OEI-07-90-02250, released in June 1993. This report found low collections in
           military cases due to challenges child support staff experienced locating absent parents;
           lack of training of child support staff to handle military cases; and inconsistent wage
           withholding requests submitted to Military Finance Centers. A recommendation to
           establish a standard wage withholding request form was implemented.

           In August 1997, the Inspector General released Grantees and Providers Delinquent In
           Child Support, OEI-07-96-00390, examining Departmental compliance with a September
           1996 executive order requiring Federal agencies to offset Federal payments and deny
           Federal loans to delinquent obligors. The report examined child support payment
           compliance by a sample of physicians receiving Medicare payments and a sample of
           individuals receiving grants or payments through the National Health Services Corp and
           the National Institutes of Health. The Inspection found that three out of every 1,000
           providers or grantees in the study universe were in arrears, totaling $21.5 million.


SCOPE AND METHODOLOGY

           In this inspection, we examined whether wage withholding was occurring for all
           Department of Health and Human Service employees who are delinquent child support
           obligors. Where wage withholding was in place, we determined whether the withholding
           was accurate and timely. Where withholding was not in place, we examined sampled case
           records to determine why it was not in place. We also analyzed the payment records on
           the sampled cases to determine the amount of support uncollected due to the absence of
           withholding. In addition, we collected descriptive information on the processes used to
           locate obligors and establish wage withholding.

           To identify the universe of departmental employees who are indicated as delinquent
           obligors on the tax refund offset file, we conducted a match of the Department’s payroll
           file with the Federal tax refund offset file. We matched 61,325 individuals who had been
           employees of the Department of Health and Human Services for at least three months as
           of May 30, 2000, with the 4,501,494 individuals who were obligors in arrears on the
           Federal tax offset file as of July 31, 2000. This resulted in a list of 239 individuals
           matched by Social Security Number (SSN).



Withholding Child Support Obligations From Departmental Employees   5             OEI-05-00-00300
           We then compared each individual’s name on the tax refund offset file with the name on
           the payroll file to verify that these 239 matches were correct. We found 20 cases in which
           the same SSN had been used to identify 2 different people. We sent these SSNs to the
           Social Security Administration and requested the correct name for each case. We found
           that 18 of the SSNs were incorrect on the tax offset file and 2 others were incorrect on the
           payroll file. All 20 individuals were dropped from our universe. An additional 4
           individuals were eliminated due to death, resignation or closed cases, resulting in a
           universe of 215 employee-obligors. Three of the employees had died or resigned prior to
           the date of our payroll file extract. The child support case of one employee-obligor was
           closed prior to the date of the tax offset file extract.

           We matched the 215 employee-obligors against the payroll office’s Debt Management
           Collection System to determine whether wage withholding was in place as of May 30,
           2000. We found that withholding was not in place for 76 of these 215 employee-obligors.

           To check the accuracy of the payroll office’s withholding process, we pulled a random
           sample of 51 of the 139 employee-obligors who had wage withholding in place. For each
           sampled employee, we compared the court order received to the data entered into the debt
           management system and then to the payroll data transmitted to the Treasury Department.
           Through this comparison, we assessed whether the withheld wages were transmitted in a
           timely manner, to the appropriate party and for the correct amount.

           To determine why withholding was not in place for the other 76 employee-obligors, we
           pulled a stratified-cluster sample of 45 employee-obligors, stratified by State in which the
           order is based. We divided the 27 States containing the cases in our universe into three
           strata, based on the number of employee-obligors in the State. We selected all five States
           in our first strata, consisting of States with five or more employee-obligors. We randomly
           selected two of the four States in our second strata, consisting of States with three or four
           employee-obligors. We randomly selected two of the 18 States in our third strata
           consisting of States with one or two employee-obligors.

           The resulting sample is depicted in the following chart:

                                               Stratum 1                     Stratum 2   Stratum 3
 State                    AZ          ND            CA         MD       NM   GA    MT    IA      MO        9 States
 No. of NCPs*             9           8             7          6        5    3     3     2       2         45 NCPs
*NCPs = Non-custodial parents (employee-obligors)




           The data was not weighted to project our findings. Rather, our intention was to illustrate
           the scope and nature of the problems associated with the absence of wage withholding.


Withholding Child Support Obligations From Departmental Employees   6                         OEI-05-00-00300
           We reviewed the case files for each of the employee-obligors in our sample on-site in the
           State child support offices.4 We analyzed steps used to locate the obligor, attempts to
           establish wage withholding and payments missed in the absence of withholding.

           To obtain information on the processes used by caseworkers to locate obligors and
           establish wage withholding, we interviewed local office caseworkers in two offices in each
           State in our sample. We also interviewed State policy staff responsible for oversight and
           guidance pertaining to “locate” and withholding. In addition, we reviewed copies of the
           income withholding forms and accompanying instructions sent to employers in the
           sampled States.

           We also interviewed staff of the Department’s Special Activities Branch who are
           responsible for processing wage withholding orders for departmental employees.

           All data collection occurred between June and November 2000.

           Our review of the withholding process for departmental employees was limited to
           employees who were indicated as delinquent child support obligors on the Federal tax
           refund offset file. We did not determine the total universe of employees who owe child
           support, because there is no complete data set available to make this determination.

           We also did not review the enforcement of health insurance support from Federal
           employees. We did not examine compliance with elements of the Executive Order
           pertaining to Federal employer cooperation in “locate” and the service of legal process.

           Our review was conducted in accordance with the Quality Standards for Inspections
           issued by the President’s Council on Integrity and Efficiency.




           4
                      We did not review cases on-site in Montana. The State IV-D Director informed us that they knew the 3 employee-obligors
                      were HHS employees and that support was not in place for them because they were employed on an Indian reservation. The
                      State office sent us the other requested data.


Withholding Child Support Obligations From Departmental Employees     7                                          OEI-05-00-00300
                                                    FINDINGS
N

We Found Delinquent Obligors Without Wage Withholding
Employed by the Department
           The 1995 Executive Order 12953 requires an annual match of the Federal tax refund
           offset file, indicating delinquent obligors, with the payroll files of Federal agencies. The
           intent of this match is to identify Federal employees with child support delinquencies to
           ensure enforcement of their support obligations. The Department last conducted an
           annual match in 1996. With the implementation of the Federal Case Registry and National
           Directory of New Hires in 1996, the Department assumed that this new match would both
           identify all delinquent obligors and trigger the wage withholding process for departmental
           employees.

We conducted a cross-match and found 215 delinquent departmental employee-
obligors, 139 of whom have income withholding in place and 76 of whom do not

           We conducted a match of the Federal tax refund offset file, indicating delinquent support
           obligors, and the Department of Health and Human Services’ payroll file. This match
           resulted in a list of 215 delinquent employee-obligors, with an average delinquency of
           $7,295. Therefore, although we cannot determine the universe of employee-obligors in
           the Department, we know that there are at least 215 employees delinquent in paying
           support. A profile of the 215 employee-obligors can be found in Appendix A. As of May
           30, 2000, wage withholding was in place for 139 (65 percent) of these delinquent
           employee-obligors and not in place for 76 (35 percent).

           We reviewed payments missed in the months in which a sample of 45 of the 76 employee-
           obligors without withholding in place were employed by the Department and were
           obligated to pay support between December 1998 and May 2000. Through this review,
           we determined that if withholding had been in place, $128,893 in additional support would
           have been collected from these 45 employees.

The Program Support Center has agreed to conduct the cross-match

           As of June 2000, HHS was withholding wages for child support and/or alimony on a
           mandatory basis for 569 employees and on a voluntary basis for 8 employees. The
           Program Support Center (PSC), an operating division of HHS, conducts payroll services
           for all of the Department’s approximately 60,000 employees. As part of its payroll
           operations, the Center oversees the Debt Management and Collection System for
           the Department. Through this system, all payroll deductions for child support payments
           are processed.

           The Special Activities Branch is responsible for processing all mandatory withholding
           orders. The Program Support Center agreed that the Special Activities Branch will work

Withholding Child Support Obligations From Departmental Employees   8             OEI-05-00-00300
           with the Office of Child Support Enforcement to periodically conduct a cross-match to
           identify delinquent Department child support obligors.


In More Than Half the Sampled Cases, States Did Not Know
That Delinquent Obligors Were Departmental Employees
           State systems typically match obligor information with State employment databases
           containing new hire and quarterly wage information from employers statewide.
           Additionally, the majority of State systems receive matches, indicating employment
           information, from the National Directory of New Hires. The NDNH is the primary source
           for learning of Federal employment because Federal employees are not included in State
           employment systems.

           The Office of Child Support Enforcement sends matches generated by the Federal Case
           Registry and the National Directory of New Hires directly to the States’ child support
           enforcement agencies’ computer systems on a routine basis. In most of the States we
           visited, States report that the National Directory employer information automatically
           populates the employment information screen of the obligor with a matched SSN. The
           State system then uses this employer address to issue a wage withholding order to the
           employer.

           The caseworkers we interviewed primarily rely on automated “locate” searches to find the
           employment of an obligor. Most of the nine sampled States we visited report that their
           child support systems use this information to automatically generate a withholding order
           to the listed employer. The Office of Child Support Enforcement, however, only
           recognizes two of our nine sample States as having fully automated wage withholding at
           the time of our study. According to OCSE, it is possible that NDNH information may
           sometimes be altered by caseworkers or overwritten by in-State locate sources. The
           OCSE has found that many States have difficulty maintaining the integrity of their master
           employer table.

States’ lack of knowledge of departmental employment contributes to the
absence of wage withholding

           The Office of Child Support Enforcement assumes that States will learn from the NDNH-
           matches that an obligor is a Federal employee and act accordingly to pursue wage
           withholding. However, we found that in many cases, the States either did not receive
           matches or did not determine from the matches that the obligor was, in fact, a Federal
           departmental employee.

           Our examination of the case files for a sample of 45 of the 76 employee-obligors without
           withholding in place revealed that in approximately 22 cases the States did not learn that
           these obligors were departmental employees. Seventeen of the 22 departmental
           employees were employed by the Indian Health Service.


Withholding Child Support Obligations From Departmental Employees   9             OEI-05-00-00300
           Upon learning of the obligors’ employment with the Department through our inspection,
           most of the States immediately issued wage withholding orders to HHS for these cases.
           The sampled States’ quick response demonstrates that the information generated by the
           National Directory of New Hires-Federal Case Registry match may not be used by the
           States to ensure enforcement of departmental employees, as intended in the Executive
           Order. Had the States been able to ascertain departmental employment more readily, the
           intention of the Executive Order to ensure enforcement of the child support obligations of
           federal employees could have been better fulfilled.

State systems may not be able to effectively use National Directory of New Hires’
addresses

           State child support staff indicated State system difficulties with the NDNH addresses. In
           some States, the NDNH matches are read through a centralized employer address
           database to verify address information. In these cases, if the match lists “HHS” as the
           employer, while the existing database reference for the matching employer identification
           number is the “U.S. Department of Health and Human Services,” the system may reject
           the match or register it to an exception report. The NDNH also does not indicate
           employment status. One respondent suggested that this creates problems if the obligor is
           only employed intermittently or part-time with the Department, while holding a full-time
           job elsewhere.

           The Office of Child Support Enforcement’s “NDNH Guide for Data Submission” requires
           Federal employers to use the address of “the entity that employs the individual” as the
           employer address in the NDNH. For departmental employees, the Program Support
           Center address is hard coded as the primary address. The Guide also gives employers the
           option of submitting a second address which should be “where an employer receives child
           support wage withholding orders.”

           During our data collection, we found that the Department was not submitting the second
           optional address for wage withholding. As a result of our inspection, the Department
           took corrective action to ensure that beginning in January 2001, the Office of the General
           Counsel was hard coded in the optional employer address category. States’ access to two
           addresses for departmental employees will help to ensure that departmental employees are
           correctly identified by States and subsequently, that wage withholding orders are sent to
           the Department.

More Than Half of the Individuals Without Wage Withholding
Were Indian Health Service Employees
           In some cases, State records indicate the physical employment sites, such as an Indian
           Health Service hospital, rather than the Program Support Center. This address
           information causes caseworkers to perceive departmental employees as Tribal employees.
           In sampled States, when work sites are located on Indian reservations, income withholding
           orders are usually not pursued. If departmental employment had been readily

Withholding Child Support Obligations From Departmental Employees   10           OEI-05-00-00300
           apparent, the Tribal jurisdiction issues likely would not have been a barrier to withholding
           in most States. A more detailed chart, indicating reasons for non-withholding on each
           case, is in Appendix B.

           In 20 of the 45 cases, tribal jurisdiction issues contributed to the absence of income
           withholding. As is the case for our universe, these obligors are paid Federal wages by the
           Program Support Center. The Department has the authority to withhold wages for all
           Federal employees for the payment of child support, regardless of Native American tribal
           membership or residency or employment on a reservation.5 Some child support staff are
           not aware of this authority.

           The following chart depicts the impact of Tribal issues on income withholding for IHS
           employees:

 No. of Cases                Tribal Jurisdiction Issues Contributing to Absence of Withholding
 5                           Locate not pursued because obligor is Native American
 8                           IWO not sent because obligor is Native American
 4                           IWO sent to local IHS site and not forwarded to PSC
 3                           Tribes responsible for the cases did not issue IWOs


State enforcement policies involving Tribal jurisdiction are varied and complex.
Many caseworkers do not pursue these cases.

           State and local staff reported difficulty enforcing child support cases when the obligor is a
           Tribal member, resides or works on a reservation. In general, child support agencies have
           no authority to enforce State orders on Tribal land. Factors States consider to determine
           jurisdiction include the residency of the obligor, the location of his or her work-place,
           tribal membership, and the child’s tribal membership or residency. Respondents indicated
           that they rely on an assortment of rules to determine jurisdiction and usually decide on a
           case-by-case basis.

           Caseworkers in our 9 States, with average caseloads of 800, must prioritize their
           workloads. Several caseworkers indicated that they do not pursue cases involving Native
           Americans because the State is unable to enforce collections from non-Federal Tribal
           employees. Some States’ computer systems have codes indicating lack of jurisdiction for
           Tribal reasons, which further discourages caseworkers from pursuing these cases.




           5
                      Social Security Act, Title IV, Section 459 [42 U.S.C. 659] (A)


Withholding Child Support Obligations From Departmental Employees      11              OEI-05-00-00300
Caseworkers often do not know that Native American obligors are Federal
employees or that enforcement should be pursued for Indian Health Service
cases

           In several cases, the caseworker appeared to know that the obligor was working at an
           Indian Health Service (IHS) site. However, the caseworker did not know that the obligor
           was a Federal employee and, therefore, did not pursue income withholding. In some
           cases, respondents knew Native American obligors were Federal employees, but did not
           pursue enforcement because of the erroneous belief that these cases cannot be enforced.
           In fact, a couple of State policy staff respondents indicated that if the wages are earned on
           a reservation, wage withholding cannot be pursued regardless of the payer source.

In some cases, income withholding orders were not in place because the Tribe
responsible for enforcing the cases did not issue withholding orders

           Two of our sampled States, New Mexico and Arizona, contract with the Navajo Nation
           for the Nation to provide Tribal child support enforcement services. Local Navajo
           caseworkers in New Mexico reported including income withholding orders on all cases
           established administratively. However, caseworkers report that most cases established in
           Navajo court do not include income withholding provisions. Modifying an order to
           include income withholding is a multi-step process that can take a long period of time. In
           three of the cases we reviewed, employment with the Department was known, but an
           income withholding order had not been sent due to Tribal court procedures.

The Department Enters All Income Withholding Orders
Received; Some Data Entry Errors Occur
The payroll office’s process for entering income withholding orders appears to
be orderly and timely

           When the PSC receives an income withholding order, either through the Office of General
           Counsel, or directly from a State child support agency, an accounting technician records
           all of the elements required for the Debt Management Collection System on a one-page
           form. Upon a supervisor’s approval, the technician enters the data into the system.
           Through a review of 51 cases with withholding in place, we found that the majority were
           entered into the system within 10 days of the income withholding orders’ receipt.

           The data in the debt management collection system is transmitted electronically to the
           Treasury Department at the end of each pay period. The Treasury Department generates
           and distributes paychecks and withheld payments based on this transmission. Our
           comparison of the data entered into the Debt Management Collection System to a print-
           out of the data transmitted to the Treasury verified that the fields in the system are
           correctly transmitted within one day of the end of the pay period.


Withholding Child Support Obligations From Departmental Employees   12             OEI-05-00-00300
           State records indicated that income withholding orders were sent to HHS in 8 of the 45
           sampled cases that did not have withholding in place at the time of data collection. The
           Program Support Center was not at fault for the lack of withholding for any of these
           cases. Four of these cases were sent to the wrong HHS address, three were inactive
           because the current support debt had been paid in full, and one was implemented after our
           review period. A chart depicting the reasons for non-withholding on all cases is included
           in Appendix B.

We found data entry errors in the amounts to be withheld and recipient addresses

           Although the Payroll Office’s process for entering income withholding orders into the debt
           management collection system appears to be orderly, errors occur. In 8 of 49 cases6 (16
           percent) reviewed, the amounts to be withheld on the entry forms differed from the
           required amounts on the court orders. In six of the eight cases, the difference was due to
           omission of the arrears or the current support payment. In the other two cases,
           withholding was more than it should have been based on the court order. The address to
           which the withheld payments should be sent differed from the addresses on the court
           orders in 6 of the 51 cases (12 percent).

           The absence of supervisor approval appears to be a factor in the cases in which the
           withheld amounts were incorrect. Seven of the eight entry forms with errors in the
           withheld amounts were not signed by a supervisor. Overall, entry forms were not signed
           by a supervisor in 46 percent of the reviewed cases. While the lack of supervisor approval
           appears to be significant in the cases with errors related to the amount withheld, it does
           not appear to be a significant factor in address errors.

The payroll office has no formal process to ensure local HHS offices forward
income withholding orders

           Income withholding orders sometimes come to the Program Support Center via local
           Department office sites. According to the Center, all payroll liaisons in local offices have
           been verbally informed to forward orders to the Program Support Center. There is no
           written procedure instructing local sites of this requirement, nor any PSC oversight to
           ensure compliance.

           The lack of a formalized forwarding process appears to be a problem in cases in which
           obligors work for the Indian Health Service (IHS). In 4 of our 45 cases, the State child
           support staff sent income withholding orders to HHS local offices and the orders were not
           forwarded to the Program Support Center. The IHS was the employer for three of these
           four cases.



           6
                      The universe of cases for which the withheld amounts were reviewed was 49 rather than 51 because in 2 of the cases, the
                      required withheld amount was greater than 50% of the obligor’s disposable income. The Federal Consumer Protection Act
                      limits garnishment to 50% of disposable earnings for an obligor who supports a second family and 60% to an obligor not
                      supporting a second family.


Withholding Child Support Obligations From Departmental Employees     13                                           OEI-05-00-00300
                              RECOMMENDATIONS

The Department Should Designate a Senior Departmental
Official the Responsibility for Ensuring Compliance with the
Executive Order
           While conducting our inspection, OCSE and PSC worked closely with us to solve
           problems associated with the 76 departmental employees without wage withholding. In
           addition, they have been active partners with the Department in responding to our
           recommendation to institutionalize a process to ensure that the Department is in
           compliance with the Executive Order.

           We recognize the Office of Child Support’s efforts to ensure that Federal agencies submit
           timely and accurate employment information to the National Directory of New Hires and
           that States are able to use this data effectively. Since PRWORA, OCSE has focused on
           the development of the National Directory of New Hires and the Federal Case Registry,
           which are systems to provide States with much needed employment data. Continuing to
           ensure these systems function effectively is vital to departmental and State efforts to
           withhold wages for delinquent child support obligors.

           We recommend that the Department now focus on the outcomes of these systems. In
           particular, to ensure compliance with the Executive Order, the Department must focus on
           State and departmental actions that are necessary to withhold wages for all departmental
           obligors. During the course of assisting with this inspection, OCSE and PSC agreed to
           work together to periodically conduct the cross-match. Through this match, the
           Department will determine which departmental employees are delinquent child support
           obligors and do not have withholding in place. The OCSE and PSC should work together
           to release the employment information to the States responsible for enforcing the
           delinquent employee-obligors’ wage withholding orders and to ensure implementation of
           orders received. The OCSE and PSC agreed to do so.

           In addition, the Department must meet the other requirements of the Executive Order,
           which include informing and sensitizing employee obligors about their child support
           obligation and the Department’s obligation to withhold wages. We suggest that the Office
           of Human Resources (OHR) of the Assistant Secretary for Management and Budget
           should assume responsibility to meet the Executive Order requirements of routinely
           informing departmental employees about:

             C the Department’s obligation to cooperate in efforts to establish paternity and child
               support orders,
             C the Department’s obligation to enforce the collection of child and medical support,
             C the Department’s obligation to withhold wages for all child support obligors for whom
               a State issues a wage withholding order to the Department,


Withholding Child Support Obligations From Departmental Employees   14          OEI-05-00-00300
             C departmental employees’ responsibility to be in compliance with their child support
               obligations, and
             C actions departmental employees should take and services that are available to them to
               ensure that their children are provided the support to which they are legally entitled.

           The Department should assign a senior departmental official the responsibility to organize
           and oversee the overall effort to meet the requirements of the Executive Order and report
           progress and compliance to the Secretary on a routine basis.

The Office of Child Support Enforcement Should Help States
Effectively Use the National Directory of New Hires

           As our findings demonstrate, State child support staff did not appear to know that many
           sampled employee-obligors were Federal employees. State child support staff’s inability
           to learn of departmental employment from the NDNH for employee-obligors indicates that
           States remain in need of assistance in order to efficiently and effectively use the NDNH to
           issue wage withholding orders for departmental employees.

           Specifically, OCSE should continue to work with States to improve or enhance their
           automated processing of NDNH data and automated wage withholding. This should
           include encouraging States to establish processes to verify NDNH information, even if
           alternative employer information exists. In addition, States should be encouraged to
           enhance their automated systems to be able to capture the second wage withholding
           address provided by the Department.

The Office of Child Support Enforcement Should Provide
Guidance to States on Issuing Withholding Orders for Indian
Health Service Employees

           In 19 of the 45 sampled cases, tribal jurisdiction issues contributed to the lack of income
           withholding. Additionally, 44 of the total 76 delinquent employee-obligors without
           withholding in place are employed by the Indian Health Service (IHS). As all of the
           obligors are Federal employees, tribal jurisdiction should not have prevented wage
           withholding in any of these cases.

           Of the 139 delinquent employee-obligors with withholding in place, 61 are employed by
           IHS, many on reservations. Clearly, income withholding orders are regularly implemented
           for IHS employees without legal challenges. Withholding orders should be in place for all
           delinquent IHS employee-obligors.




Withholding Child Support Obligations From Departmental Employees   15             OEI-05-00-00300
To ensure withholding for all IHS employee-obligors, OCSE should:

               C Provide guidance to State child support agencies clarifying their authority to enforce
                 wage withholding for all Federal employees, regardless of where the wages are earned.

               C Encourage State agencies to examine whether obligors employed by reservation
                 medical centers are departmental employees. States could provide local staff with lists
                 of IHS sites to cross-reference with employer addresses on reservations.
               C Instruct States to send all income withholding orders for Indian Health Service
                 employees to the OGC, the designated withholding agent for the Department.

The Program Support Center Should Increase Withholding
Accuracy By:
Ensuring review of all withholding entries

               C Review all entry forms carefully, ensuring that all of the data from the court orders has
                 been correctly entered and that the form has been signed by a supervisor.

           We found errors in the entry of withholding amounts in the withholding system operated
           by the Program Support Center (PSC). Entry forms with errors in the withhold amounts
           were rarely signed by a supervisor.

Expanding entry form

               C Include space for technicians to calculate percentages of disposable income.

           Federal law prohibits employers from withholding more than 50 to 65 percent of an
           obligor’s disposable income.7 In some cases, therefore, the Program Support Center staff
           need to calculate income percentages to determine allowable withholding amounts. We
           found calculations were often scribbled on the margins of forms, rendering an accurate
           supervisory review difficult.

Formalizing the forwarding process of income withholding orders from local
offices

               C Provide local payroll liaisons with written guidance on the need to forward all income
                 withholding orders to the PSC.
               C Require that local liaisons record the date of receipt of all income withholding orders
                 and the date forwarded in a log, subject to review.
               C Mandate that forwarding occur within 3 days of income withholding orders receipt.


           7
                      The Federal Consumer Protection Act limits garnishment to 50% of disposable earnings for an obligor who supports a second
                      family and 60% to an obligor not supporting a second family. If arrears are more than 12 weeks overdue, the percentage of
                      earnings which can be garnished increases to 55% and 65% respectively.



Withholding Child Support Obligations From Departmental Employees     16                                          OEI-05-00-00300
           In 4 out of 45 sampled cases, States sent withholding orders to local HHS offices. These
           orders were not forwarded to the Program Support Center. Child support agencies should
           send income withholding orders directly to the PSC or Office of General Counsel.
           However, when they are sent erroneously to local offices, they should not be neglected.

Tracking receipt of employee verification letters and income withholding orders
not acted upon

             C Keep copies of all employer verification letters and income withholding orders
               received.

           In a few cases, States indicated that they sent verification letters to the Program Support
           Center, but the PSC did not have a record of them. The PSC indicated that they do not
           store verification letters or withholding orders that are not acted upon. Storage of these
           letters and orders would allow periodic review to ensure appropriate response to all child
           support agency requests.




Withholding Child Support Obligations From Departmental Employees   17            OEI-05-00-00300
                               AGENCY COMMENTS

           We received comments from the Office of Child Support Enforcement (OCSE), the
           Program Support Center (PSC) and the Indian Health Service (IHS). The OCSE is in
           agreement with our findings and recommendations. The PSC agrees this is an important
           initiative and provided technical comments and clarification. The IHS agrees with our
           recommendation pertaining to IHS employees. Where appropriate, we changed the report
           to reflect their comments. The full OCSE, PSC and IHS comments are contained in
           Appendix C.

           We would like to thank OCSE for their assistance in conducting this study and for
           providing us with substantive and insightful comments. The OCSE has provided extensive
           guidance and technical assistance to States. The OCSE will further these efforts with a
           specialized guidance document that will address the issues detailed within this report.

           The OCSE will address the recommendation made directly to them as well as assist the
           Program Support Center in responding to the recommendation pertaining to the PSC’s
           role in employee wage withholding. The OSCE’s and PSC’s efforts will help to assure
           departmental compliance with Child Support Enforcement requirements and with the
           intent of the Executive Order.

           The Indian Health Service concurs with our recommendation that OCSE provide guidance
           to State Child Support agencies clarifying their authority as to federal employees residing
           and/or working on Indian reservations.

           Finally, we recognize that additional discussions are needed within the Department to
           resolve outstanding substantive and technical matters highlighted in the report. First, the
           substantive matter concerns the designation of a senior official to oversee Departmental
           compliance with the Executive Order. Considerable improvement can be made without
           taking this step, but an overall coordinator could facilitate a more cohesive and effective
           Department-wide response. Second, to resolve the technical issue, OCSE has provided us
           with a separate technical memorandum, addressing issues related to OCSE providing their
           files to other federal Departments in order to test compliance with the intent of the
           Executive Order.




Withholding Child Support Obligations From Departmental Employees   18           OEI-05-00-00300
APPENDIX A                                                                             APPENDIX A



                                     Profile of Employee-Obligors
Totals:

C     215 departmental employees were obligors on the tax offset file as of 5/30/00

C     139 employee-obligors with income withholding in place as of 5/30/00

C     76 employee-obligors without income withholding in place as of 5/30/00


 GRADE LEVEL                                           All Employee-     Without          With
                                                       Obligors (215)    Withholding      Withholding
                                                                         (76)             (139)
 % that are GS-7 or less                               60% (128)         65% (49)         57% (79)
 % that are GS-11 or less                              85% (182)         87% (66)         84% (116)



 SALARY                                                All Employee-     Without          With
                                                       Obligors (215)    withholding      withholding
                                                                         (76)             (139)
 75% earn less than this                               $42,275           $40,114          $43,094
 amount (Quartile 3)
 50% earn less than this                               $32,974           $29,361          $33,768
 amount (Median)
 25% earn less than this                               $25,459           $24,091          $26,455
 amount (Quartile 1)
 Minimum Salary                                        $13,870           $13,870          $15,261
 Maximum Salary                                        $115,811          $98,310          $115,811




Withholding Child Support Obligations From Departmental Employees   19                  OEI-05-00-00300
                                                                                       APPENDIX A


                                     Profile of Employee-Obligors

 AGENCY EMPLOYMENT                                     All Employee-     Without          With
                                                       Obligors (215)    Withholding      Withholding
                                                                         (76)             (139)
 IHS                                                   49% (105)         58% (44)         44% (61)
 NIH                                                   17% (37)          4% (3)           24% (34)
 FDA                                                   10% (21)          9% (7)           10% (14)
 CDC                                                   8% (18)           8% (6)           9% (12)
 OS                                                    6% (13)           10% (8)          4% (5)
 HCFA                                                  4% (8)            5% (4)           3% (4)
 PSC                                                   4% (8)            4% (3)           4% (5)
 HRSA                                                  1% (3)            0% (0)           2% (3)
 ACF                                                   1% (2)            1% (1)           1% (1)



 EMPLOYMENT STATUS                                     All Employee-     Without          With
                                                       Obligors (215)    Withholding      Withholding
                                                                         (76)             (139)
 Full time                                             94% (203)         87% (66)         99% (137)
 Part time                                             1% (2)            1% (1)           <1% (1)
 Zero hours                                            5% (10)           12% (9)          <1% (1)



 EMPLOYMENT HISTORY                                    All Employee-     Without          With
                                                       Obligors (215)    Withholding      Withholding
                                                                         (76)             (139)
 Less than 1 year                                      19% (41)          30% (23)         13% (18)
 One to 3 years                                        20% (42)          26% (20)         16% (22)
 More than 3 years                                     61% (132)         43% (33)         71% (99)




Withholding Child Support Obligations From Departmental Employees   20                  OEI-05-00-00300
                                                                                                           Income Withholding Order Not Sent to HHS                                      IWO Sent to HHS. Not in Place on 5/30/00.



                                                                                                                                      IWO
                                                                                                                                      Deemed
                                                                                                                                      Not                                            IWO in Place
                                                                                                                                      Necessary               State Knew             w/ HHS, But
                                                                             Locate Not                                               Because                 NCP Was                Inactive on
                                                                             Pursued        IWO Not         Tribes                    NCP         State       w/ HHS.                5/30/00                         IWO Sent
                                                                             Due to         Sent Due        Responsible   IWO in      Perceived   Did Not     No                     Because          IWO Sent       to HHS on
                                                                             Tribal         to Tribal       for Case      Place w/    as          Learn of    Discernible            Child            to Local       4/21/00 and
                                                                    Sample   Jurisdiction   Jurisdiction    Did Not       Other       Not in      NCP         Reason for             Support          HHS Site,      Implemented
                                                                    Number   Questions.     Questions.      Issue IWO.    Employer.   Arrears.    Employment. No IWO.       Other*   Paid in Full.    Not PSC.       6/20/00.

                                                                      1                          X

                                                                      2           X

                                                                      3                          X

                                                                      4                          X




Withholding Child Support Obligations From Departmental Employees
                                                                      5                          X




   21
                                                                      6                                                                                                                   X

                                                                      7                          X
                                                                                                                                                                                                                                     Reasons for Non-Withholding





                                                                      8           X

                                                                      9           X

                                                                      10                                        X

                                                                      11                                        X

                                                                      12                                                     X

                                                                      13                                        X

                                                                      14                                                                                           X




OEI-05-00-00300
                                                                      15                                                                 X
                                                                                                                                                                                                                                                                    APPENDIX B
                                                                                                           Income Withholding Order Not Sent to HHS                                    IWO Sent to HHS. Not in Place on 5/30/00.



                                                                                                                                      IWO
                                                                                                                                      Deemed
                                                                                                                                      Not                                            IWO in Place
                                                                                                                                      Necessary               State Knew             w/ HHS, But
                                                                             Locate Not                                               Because                 NCP Was                Inactive on
                                                                             Pursued        IWO Not         Tribes                    NCP         State       w/ HHS.                5/30/00                       IWO Sent
                                                                             Due to         Sent Due        Responsible   IWO in      Perceived   Did Not     No                     Because         IWO Sent      to HHS on
                                                                             Tribal         to Tribal       for Case      Place w/    as          Learn of    Discernible            Child           to Local      4/21/00 and
                                                                    Sample   Jurisdiction   Jurisdiction    Did Not       Other       Not in      NCP         Reason for             Support         HHS Site,     Implemented
                                                                    Number   Questions.     Questions.      Issue IWO.    Employer.   Arrears.    Employment. No IWO.       Other*   Paid in Full.   Not PSC.      6/20/00.

                                                                      16                                                                                           X

                                                                      17                                                                                           X

                                                                       18                                                                                                                                               X

                                                                      19                                                                 X

                                                                      20                                                                                           X




Withholding Child Support Obligations From Departmental Employees
                                                                      21          X

                                                                      22




   22
                                                                      23                                                                                                                                 X

                                                                      24                                                                                                                                 X
                                                                                                                                                                                                                                   Reasons for Non-Withholding





                                                                      25                         X

                                                                      26                                                                              X

                                                                      27                                                                                                                                 X

                                                                      28                                                                                           X

                                                                      29                                                                              X

                                                                       30                                                                                                     X




OEI-05-00-00300
                                                                                                                                                                                                                                                                  APPENDIX B
                                                                                                                                                                                                                                                                      Income Withholding Order Not Sent to HHS                                    IWO Sent to HHS. Not in Place on 5/30/00.



                                                                                                                                                                                                                                                                                                 IWO
                                                                                                                                                                                                                                                                                                 Deemed
                                                                                                                                                                                                                                                                                                 Not                                            IWO in Place
                                                                                                                                                                                                                                                                                                 Necessary               State Knew             w/ HHS, But
                                                                                                                                                                                                                                        Locate Not                                               Because                 NCP Was                Inactive on
                                                                                                                                                                                                                                        Pursued        IWO Not         Tribes                    NCP         State       w/ HHS.                5/30/00                       IWO Sent
                                                                                                                                                                                                                                        Due to         Sent Due        Responsible   IWO in      Perceived   Did Not     No                     Because         IWO Sent      to HHS on
                                                                                                                                                                                                                                        Tribal         to Tribal       for Case      Place w/    as          Learn of    Discernible            Child           to Local      4/21/00 and
                                                                                                                                                                                                                             Sample     Jurisdiction   Jurisdiction    Did Not       Other       Not in      NCP         Reason for             Support         HHS Site,     Implemented
                                                                                                                                                                                                                             Number     Questions.     Questions.      Issue IWO.    Employer.   Arrears.    Employment. No IWO.       Other*   Paid in Full.   Not PSC.      6/20/00.

                                                                                                                                                                                                                              31                                                                                                                     X

                                                                                                                                                                                                                              32                                                                                                                                    X

                                                                                                                                                                                                                                33                                                                               X

                                                                                                                                                                                                                              34                                                                                                         X

                                                                                                                                                                                                                              35                                                        X




Withholding Child Support Obligations From Departmental Employees
                                                                                                                                                                                                                              36                                                                                              X

                                                                                                                                                                                                                              37                                                        X




   23
                                                                                                                                                                                                                              38                                                                                 X

                                                                                                                                                                                                                              39                                                                                                                     X

                                                                                                                                                                                                                              40                                                                                 X




                                                                    verification with HHS was attempted for two cases. There was no response, and the State did not pursue.
                                                                                                                                                                                                                              41                                                        X

                                                                                                                                                                                                                              42                                                                    X
                                                                                                                                                                                                                                                                                                                                                                                              Reasons for Non-Withholding





                                                                                                                                                                                                                              43                            X

                                                                                                                                                                                                                                44           X

                                                                                                                                                                                                                                   45                       X




OEI-05-00-00300
                                                                                                                                                                                                                             TOTAL           5              8              3            4            3           5            6          3            3             4               1
                                                                                                                                                                                                                                                                                                                                                                                                                             APPENDIX B




                                                                    *Other reasons for IWOs not sent to HHS are: 1) Case was unenforceable since child is now 27, exceeding the AZ Statute of Limitations; and 2) Employer
                                                                         APPENDIX C

                               Agency Comments





Withholding Child Support Obligations From Departmental Employees   24    OEI-05-00-00300
                                                          APPENDIX C
                                Agency Comments





Withholding Child Support Obligations From Departmental
                   APPENDIX C
Agency Comments

                                                          APPENDIX C
                                Agency Comments





Withholding Child Support Obligations From Departmental
                                                   Agency Comments





Withholding Child Support Obligations From Departmental Employees   28   OEI-05-00-00300
                                                                       APPENDIX C


                                                    Agency Comments





Withholding Child Support Obligations From Departmental
                                                                       APPENDIX C


                                                    Agency Comments





Withholding Child Support Obligations From Departmental
